                                                               Memorandum
               U.S. Department of
               Transportation
               Office of the Secretary
               of Transportation
               Office of Inspector General


Subject:       INFORMATION: Review of the Department of                  Date:    December 11, 2009
               Transportation’s Oversight of Recovery Act
               Recipient Reporting
               Department of Transportation
               Project No. 10U3007M000

                                                                       Reply to   JA-1
  From:        Ann Calvaresi Barr                                      Attn of:

               Principal Assistant Inspector General
                for Auditing and Evaluation
    To:        All Secretarial Officers
               Federal Aviation Administrator
               Federal Highway Administrator
               Federal Railroad Administrator
               Federal Transit Administrator
               Maritime Administrator

           On February 17, 2009, the President signed into law the American Recovery and
           Reinvestment Act (Recovery Act), which designated over $48 billion to the
           Department of Transportation (the Department). 1 Key provisions of the Recovery Act
           include preserving and creating jobs, promoting economic recovery, and tracking
           Recovery Act efforts to ensure transparency and accountability. The Recovery Act
           requires each recipient to periodically report accurate, complete, and timely data on
           the use of the Recovery Act funds.

           The Recovery Accountability and Transparency Board requested that Office of
           Inspectors General conduct a series of reviews assessing their Department's oversight
           of Recovery Act recipient data. Accordingly, we plan to begin the first of our reviews
           in December 2009, to assess the Department's oversight of Recovery Act recipient
           reporting to determine whether, during the first Section 1512 reporting cycle in
           October 2009, the Department (1) identified inaccurate data or missing recipient
           reports, (2) identified the cause(s) of the inaccurate data or missing recipient reports,
           and (3) mitigated the causes/errors. If you have any questions or require additional
           information about this review, please call me at (202) 366-1427, or Madeline
           Chulumovich at (202) 366-6512.

                                                           #
                cc: Martin Gertel, M-1

           1
               Pub. L. No. 111-5 (2009)
